No. 19A

_____________

IN THE SUPREME COURT OF THE UNITED STATES
_____________

JonMichael Guy,
Applicant,
v.
Wyoming Department of Corrections, by and through Robert O. Lampert,
individually and in his official capacity as Director of the Wyoming
Department of Corrections; Julie Tennant-Caine, individually and in her
official capacity as a Deputy Administrator of the Wyoming Department of
Corrections; and the State of Wyoming,
Respondent.
_____________

JonMichael Guy,
Applicant,
v.
Robert O. Lampert, individually and in his official capacity as Director of the
Wyoming Department of Corrections; Julie Tennant-Caine, individually and in her
official capacity as a Deputy Administrator of the Wyoming Department of
Corrections; Wyoming Department of Corrections, by and through Robert O.
Lampert; and the State of Wyoming,
Respondent.
_____________

APPLICATION FOR AN EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
_____________

AMIR H. ALI
Counsel of Record
RODERICK & SOLANGE
MACARTHUR JUSTICE CENTER
777 6th Street NW, 11th Floor
Washington, DC 20001
(202) 869-3434
amir.ali@macarthurjustice.org
Attorney for Applicant
JonMichael Guy
September 18, 2019

IN THE SUPREME COURT OF THE UNITED STATES
_____________

JonMichael Guy,
Applicant,
v.
Wyoming Department of Corrections, by and through Robert O. Lampert,
individually and in his official capacity as Director of the Wyoming
Department of Corrections; Julie Tennant-Caine, individually and in her
official capacity as a Deputy Administrator of the Wyoming Department of
Corrections; and the State of Wyoming,
Respondent.
_____________

JonMichael Guy,
Applicant,
v.
Robert O. Lampert, individually and in his official capacity as Director of the
Wyoming Department of Corrections; Julie Tennant-Caine, individually and in her
official capacity as a Deputy Administrator of the Wyoming Department of
Corrections; Wyoming Department of Corrections, by and through Robert O.
Lampert; and the State of Wyoming,
Respondent.
_____________

APPLICATION FOR AN EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
_____________

To the Honorable Sonia Sotomayor, Associate Justice of the Supreme Court of
the United States and Circuit Justice for the Tenth Circuit:
Pursuant to this Court’s Rules 13.5, 22, and 30.3, Applicant JonMichael Guy
requests a 60-day extension of time to file a petition for a writ of certiorari to review
the judgment of the Wyoming Supreme Court in this case, to December 6, 2019.
As discussed herein, this case involves an exceptionally important question of
federal constitutional law relating to the right to practice one’s religion while
incarcerated, particularly when that religion is not a dominant one in our society.

1

Applicant requests this extension because he only recently retained Counsel of
Record, Amir H. Ali, to represent him pro bono before this Court. Mr. Ali has several
substantial briefing deadlines and oral argument during the relevant period, and
requires additional time to research the factual record and to conduct the level of
analysis that aids this Court in determining whether to grant certiorari.
In support of this request, Applicant states as follows:
1.

The Wyoming Supreme Court issued its opinion on July 9, 2019. See Guy

v. Wyoming Dep’t of Corr. by & through Lampert, 444 P.3d 652 (Wyo. 2019) (attached
hereto at Attachment A). The time for filing a petition would thus expire on October
7, 2019, absent an extension. Consistent with Rule 13.5, this application has been
filed at least 10 days before that date. This Court has jurisdiction over the case under
28 U.S.C. § 1257(a).
2.

This case concerns an exceptionally important constitutional issue,

including whether a prisoner who has established religious discrimination in
violation of the First Amendment under 42 U.S.C. §1983 is entitled to damages
irrespective of the religion he practices, or only if his religion is popular or has been
previously blessed by this Court.
3.

Applicant filed this state court action alleging that Respondents

engaged in religious discrimination by refusing to afford him and other prisoners who
practice the Humanist religion various privileges afforded to other religions. After
Applicant filed suit, Respondents changed their policy to afford privileges to
Humanist prisoners.

2

4.

In the decision below, the Wyoming Supreme Court assumed that

Respondents’ past discrimination violated the First Amendment. In several federal
courts of appeal, that would have been enough: the sincerity of Applicant’s religious
beliefs was never questioned, and it has been clearly established for decades that
government officials cannot favor some religions over others. But the Wyoming
Supreme Court required adopted a more stringent rule that categorically disfavors
prisoners of minority religions. The court held that under qualified immunity, a
prisoner must show that this Court’s judicial opinions have “clearly established” that
his particular religion cannot be disfavored.
5.

Applicant intends to file a petition for certiorari asking this Court to

resolve the conflict over this important question of federal law. Applicant requests
additional time to file the petition because he only just retained Amir H. Ali to
represent him pro bono before this Court. Because counsel is new to the case, he
requires additional time to gather the relevant record materials for the state court
proceedings in this case and to undertake the research and analysis that aids this
Court in determining whether to add a case to its merits docket.
6.

Counsel has a pre-planned vacation during the week of October 7, 2019.

7.

Additionally, during the period of the sought extension, counsel has

several substantial briefing deadlines and oral argument. These include:


Oral argument in the U.S. Court of Appeals for the Tenth Circuit in
Smart v. Chaffee, No. 18-3242, scheduled for September 23, 2019;



A petition for certiorari in this Court from the Supreme Court of
Washington’s decision in Morgan v. Washington, No. 19A119, due
October 13, 2019;

3

